‘In the Supreme Court of the United States

JEFFREY BOUDREAU,
as Personal Representative of the Estate of Wendy Boudreau,

Petitioner,
v.
SHAW’S SUPERMARKETS, INC.

Respondent.

On Petition for Writ of Certiorari To The
United States Court of Appeals for the First Circuit

PETITION FOR WRIT OF CERTIORARI

CERTIFICATE OF SERVICE

I, Laura H. White, counsel of record for Petitioner and a member of the Bar of
this Court, hereby certify that on October 16, 2020, I served the Petition for Writ of
Certiorari and Appendix on counsel for Respondent, Shaw’s Supermarkets, Inc., at
the law firm of Richardson, Whitman, Large & Badger, by electronic means to the
following addresses, and that all parties have been served in accordance with this
Court’s Order dated April 15, 2020:

Elizabeth G. Stouder, Esq., email: estouder@rwlb.com
Heidi J. Eddy, Esq., email: heddy@rwlb.com

Dated: October 16, 2020 ( % Cus attX: )
‘ura H. White, Esq.

Counsel of Record

WHITE & QUINLAN, LLC
62 Portland Road, Suite 21
Kennebunk, Maine 04043
(207) 502-7484
lwhite@whiteandquinlan.com
